OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S CIVIL
SOCIETY ACTIVITIES
AUDIT REPORT NO. E-267-07-001-P
NOVEMBER 5, 2006




BAGHDAD, IRAQ
Office of Inspector General


November 5, 2006

MEMORANDUM

TO:                  Acting USAID/Iraq Mission Director, Michael Harvey

FROM:                RIG/Baghdad, Nancy J. Lawton /s/

SUBJECT:             Audit of USAID/Iraq’s Civil Society Activities (Report No. E-267-07-001-P)

This memorandum transmits our final report on the subject audit. This report contains two
recommendations with which you concurred in your response to the draft report. Based on the
actions you have taken in response to the audit findings, a management decision has been
reached and final action has been taken on both recommendations.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.




U.S. Agency for International Development
USAID/IRAQ/RIG
APO, AE 09316
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

     Performance Monitoring Plan Should Be
     Complete and Achievable ........................................................................................... 5

     Each Reported Output Should Be
     Specific, Accurate, and Documented .......................................................................... 6

Evaluation of Management Comments ......................................................................... 7

Appendix I – Scope and Methodology .......................................................................... 8

Appendix II – Management Comments ....................................................................... 11

Appendix III – Table of Intended Outputs ................................................................... 13

Appendix IV – Table of Indicators Without Intended Outputs .................................. 27
SUMMARY OF RESULTS
USAID/Iraq’s civil society activities focused on fostering growth and development of civil
society organizations in the areas of civic education, women’s advocacy, anti-corruption,
and human rights. Training and technical assistance were provided to civil society
organizations through civil society resource centers and a small grants program created
by the implementing partner, America’s Development Foundation (ADF). (See page 2.)

Of the 35 intended outputs included in ADF’s Performance Monitoring Plan, the audit
found that USAID/Iraq’s civil society activities achieved 17 intended outputs while 8 were
reported as not met. In addition, 10 were not determinable due to a lack of sufficient
documentation and non-specific reported outputs. (See page 4.)

ADF’s Performance Monitoring Plan was neither complete nor achievable. The
Performance Monitoring Plan did not have intended outputs listed for all indicators, and
there were security issues that caused delays in the implementation of the program. To
address these problems, we recommended that USAID/Iraq review ADF’s Performance
Monitoring Plan to require that each indicator has a measurable output and that the
intended outputs are achievable. (See page 5.)

In addition, the audit found that some reported outputs were not specific, accurate and
documented. To address these issues, we recommended that USAID/Iraq develop
procedures to provide reasonable assurance of having specific and accurate reported
outputs and sufficient documentation to substantiate the reported outputs. (See page 6.)

Mission management concurred with the recommendations. Based on the actions taken
by the Mission, management decisions have been reached and final action has been
taken. (See page 7.) Management comments are included in their entirety in Appendix
II. (See page 11.)




                                                                                        1
BACKGROUND
Since liberation, thousands of independent citizen-based organizations have sprung up
within Iraq, taking advantage of the open political and social space afforded by the
collapse of the Ba’ath regime. These organizations represent the major force for
democratic transformation as they are striving to ensure that the gains achieved until
now will not be lost and that the new sovereign government is held accountable to its
citizens. However, there are a number of possible obstacles in the development of a
vibrant, non-sectarian, sustainable Iraqi civil society including a lack of public security; a
mixture of fear, cynicism, and suppression of independent thought resulting from the
Ba’athist legacy of totalitarianism; and an emerging manifestation of ideological,
religious, and political divisions within and across civil society organizations (CSOs).

In support of the U.S. Government's efforts to foster participatory democratic governance
in Iraq, USAID/Iraq sought to strengthen civil society's role in the economic and political
development of a broad cadre of indigenous CSOs in Iraq. To accomplish this goal,
USAID/Iraq awarded a $43 million contract to America’s Development Foundation
(ADF), USAID/Iraq’s primary implementing partner for civil society activities, effective
August 16, 2004. Through modifications, the funding increased to $59.1 million with an
end date of June 30, 2007.

The program funded through the contract focused on fostering the growth and
development of CSOs active in areas of civic education, women's advocacy, anti-
corruption, and human rights. ADF established four civil society resource centers staffed
by Iraqis to serve as regional hubs for the delivery of training and technical assistance to
Iraqi CSOs. ADF also implemented a small grants program that reinforced the training
and technical assistance activities being provided to the CSOs and their participation in
advocacy and policy-making at the national, regional, and local levels. In addition, ADF
worked to develop a professional independent media sector in Iraq with the goal of
developing outlets throughout the country to provide high quality information via print
and broadcast media that respond to the needs of their audiences.

This audit covered the activities implemented by ADF from August 2004 to March 31,
2006. As of March 31, 2006, cumulative obligations and disbursements under the ADF
contract were $42.9 million and $31.9 million, respectively. Funds were disbursed for
program costs ($5.2 million) and salaries, allowances, fringe benefits, and travel costs
($6.4 million). 1 In addition, there were expenditures related to contractual obligations
such as overhead, general administrative costs and profit ($5.3 million), security and
other support services ($11.8 million), and other direct costs ($3.2 million).




1
    ADF classifies a large portion of salary expense as program costs.


                                                                                            2
AUDIT OBJECTIVE
As part of its fiscal year 2006 annual audit plan, the Regional Inspector General in
Baghdad conducted this audit to answer the following question:

   •   Are USAID/Iraq’s civil society activities achieving their intended outputs?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       3
AUDIT FINDINGS
The audit found that USAID/Iraq’s civil society activities of its primary implementing
partner, America’s Development Foundation (ADF), met 17 intended outputs while ADF
reported not meeting 8 intended outputs. We were unable to determine if ADF
achieved the remaining 10 intended outputs. The table below shows the breakdown
of the 35 intended outputs.

               Progress of Intended Outputs
                                                                      Percent
                                                       Number of      of Total
                Output Status                           Outputs       Outputs
                Intended outputs were met                    17             49
                Intended outputs were not met                 8             23
                Not able to determine                        10             29
                               Total                         35            101 2


ADF had sufficient documentation to support the achievement of 17 intended outputs.
For example, intended outputs relating to civil society organization assessment
indicators were met. ADF assessed over 1,200 civil society organizations, exceeding
the intended output of 1,000 civil society organizations to be assessed. Other examples
of intended outputs met include developing or adapting 83 capacity-building training
modules and establishing four resource libraries.

ADF reported not meeting eight intended outputs including outputs relating to staff
trainings on organizational assessments, the establishment of satellite centers, and
multiple human rights intended outputs. In addition to the intended outputs not met, we
were unable to determine if ADF achieved the intended outputs for 10 intended outputs
due to a lack of supporting documentation (8 intended outputs) and because ADF did
not provide specific output information (2 intended outputs). For example, no number
was reported for the intended output of civil society organizations conducting 18 gender
events.

In addition, eight indicators did not have intended outputs listed in ADF’s Performance
Monitoring Plan 3 (PMP), but outputs were reported in the Performance Monitoring
Report for six of these indicators (see Appendix IV). Further, ADF did not accurately
report its activities. After the debriefing, which discussed the results of the audit
fieldwork, ADF revised reported outputs for 20 outputs originally under-reported.
Appendix III provides a complete listing of the intended and reported outputs.

Even though many intended outputs were not achieved, during the audit we found that
USAID/Iraq and ADF actively monitored the programs and grants awarded. The
Cognizant Technical Officer (CTO) was well informed of the program activities and met

2
    The total is greater than 100 percent due to rounding.
3
    The performance monitoring plan was prepared by ADF as required by its contract with USAID.
    It is analogous to the performance management plan cited in USAID’s Automated Directives
    System and is used to provide for periodic evaluation.


                                                                                             4
regularly with ADF. During interviews with grantees, we found that ADF employees
consistently monitored the activities (usually through unannounced visits) and that ADF
wrote monitoring reports that were regularly included in the grant files.


Performance Monitoring Plan
Should Be Complete and
Achievable
ADF’s contract required that a PMP be developed to measure progress throughout the
program and to provide for periodic evaluation of the impact of the program. The plan
was to include methodology on how data would be collected, interim and final targets,
and a timeline for collecting data. Data was to be collected for all indicators and
provided to the CTO. Pursuant to USAID’s Automated Directives System (ADS)
203.3.4.5, each indicator in the PMP should include performance baselines and set
intended outputs that are ambitious but achievable given the stated timeframe and the
available resources. ADS 203.3.3.1 further states that each indicator in a PMP should
have a target value. 4

Contrary to ADS guidance, ADF’s PMP was incomplete. As stated previously, eight
indicators did not have intended outputs associated with them (listed in Appendix IV). In
addition, the PMP contained intended outputs that were not achievable in the given
timeframe, contrary to the ADS. For example, the intended output of establishing 12
satellite support centers by December 2005 was not achievable given the situation in
Iraq and the time requirements of establishing a functioning center.

USAID/Iraq and ADF management focused on implementing the program rather than
developing an achievable and complete PMP. ADF also experienced significant security
issues that affected the implementation of the program. For example, ADF and partner
staff were kidnapped; a partner office was bombed; and there was an attempted
bombing at the ADF headquarters in Baghdad. Given the security issues, some of the
PMP indicators were not achievable. The PMP should have been revised to reflect
achievable intended outputs given these problems that arose during implementation. As
a result of an incomplete and unachievable PMP, the Mission was not properly using a
critical tool for planning and managing the program.

      Recommendation No. 1: We recommend that USAID/Iraq review each indicator
      in the America’s Development Foundation Performance Monitoring Plan for its
      civil society activities to provide reasonable assurance that each indicator has a
      measurable intended output and that the intended outputs are achievable in the
      timeframe specified in the plan.




4
    Because the contract between USAID and ADF did not specify detailed requirements for ADF’s
    PMP, we are using USAID guidance as criteria.


                                                                                             5
Each Reported Output Should
Be Specific, Accurate, and
Documented
ADS 203.3.4.2 states that performance indicators selected for inclusion in the PMP
should be useful for the relevant level of decision-making. If reported outputs are not
specific, the indicator may not be useful in the decision-making process. In addition, the
Government Accountability Office’s Standards for Internal Control in the Federal
Government states that all transactions and other significant events need to be clearly
documented and that the documentation should be readily available for examination.

ADF did not provide specific and accurate output information related to each indicator,
nor did it have sufficient documentation to support the reported outputs. ADF did not
provide specific reported outputs to measure two indicators; it only reported general,
nonspecific outputs for the two indicators. In addition, as a response to the debriefing to
discuss the results of the audit fieldwork, ADF revised the information in its Performance
Monitoring Report and increased its reported outputs for 20 indicators; all additional
information provided was audited.

ADF also did not maintain sufficient documentation to support the reported outputs of
eight intended outputs. While ADF did provide some supporting documentation for each
intended output, that documentation was not sufficient to verify the reported output. For
example, ADF did not maintain a complete listing of its activities. ADF had identified the
issue of the complete listing before the audit began and was in the process of
developing a database that would include all services provided.

The lack of specific, accurate reported outputs and sufficient documentation was due to
oversight by ADF management, which was focused on the actual implementation of the
program. In addition, USAID/Iraq had not performed any data quality assessments on
the performance data; the Mission was aware that it lacked an assessment, and an
assessment encompassing all USAID/Iraq programs was scheduled for October 2006.
Without having specific, accurate reported outputs and sufficient documentation,
USAID/Iraq cannot be assured that it is making the most appropriate decisions for the
program. To address this issue, we are making the following recommendation:

   Recommendation No. 2: We recommend that USAID/Iraq develop procedures
   for its civil society activities to provide reasonable assurance that specific and
   accurate outputs are reported for each intended output and that adequate
   supporting documentation is maintained to substantiate the reported outputs.




                                                                                         6
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Iraq agreed with the audit recommendations and
described actions it was taking to address the recommendations.

In response to Recommendation No. 1, Mission management stated that they had
reviewed the indicators and proposed outputs. In addition, a schedule was created for
regular reviews of the performance monitoring plan through the end of the contract.

In response to Recommendation No. 2, USAID/Iraq developed a schedule for the review
of its performance monitoring reports through the end of the contract.

Based on the above response by the Mission, we consider the recommendations to
have received management decisions and final action to have been taken.
Management’s comments are included in their entirety in Appendix II.




                                                                                   7
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General in Baghdad audited USAID/Iraq’s civil society activities
in accordance with generally accepted government auditing standards. The purpose of
the audit was to determine whether USAID/Iraq’s civil society activities were achieving
their intended outputs.

Projects were implemented through America’s Development Foundation (ADF),
USAID/Iraq’s primary implementing partner for civil society activities, under one contract
with five modifications. The contract, with a cumulative value of $59.1 million, was
awarded on August 16, 2004, and was effective through June 30, 2007. As of March 31,
2006, combined cumulative obligations and disbursements totaled approximately $42.9
million and $31.9 million, respectively.

The audit focused on determining if USAID/Iraq projects implemented by ADF had
achieved their intended outputs as of December 31, 2005, the time-frame specified in
the Performance Monitoring Plan. Because the audit period was from August 2004 to
March 31, 2006, the audit would have also considered reported outputs through March
31, 2006, had ADF provided such information. In July 2006 (after our debriefing to
discuss the results of the audit), ADF provided revised reported results and supporting
documentation related to activities that took place before December 31, 2005; this
information was also audited when answering the audit objective.

The audit also included an examination of management controls relating to the
monitoring of activities performed under the contract. Specifically, these controls
included:

    • Performing periodic field visits by USAID/Iraq and ADF staff to the project sites to
      observe work achieved.
    • Reviewing and approving ADF’s financial vouchers.
    • Reviewing and approving ADF’s periodic performance reports.
    • Completing the Mission’s Federal Managers’ Financial Integrity Act reports.

The audit fieldwork was performed from April 6 to July 31, 2006, and consisted of
interviews with key technical staff from the Mission and ADF employees; review of
relevant performance and financial documents; and site visits to selected grantees in
Erbil. Because of security conditions, grantees from the Baghdad area were interviewed
at ADF’s office, and grantees from Hillah and Basrah were interviewed at the Regional
Embassy Offices.

As part of our initial planning work, we examined related audits performed by other U.S.
Government agencies, including the Defense Contract Audit Agency.




                                                                                        8
                                                                               APPENDIX I


Methodology
To determine if the grantees met intended outputs, we reviewed reported outputs for all
35 intended outputs. We requested supporting documentation for all indicators that had
a specific output. Because ADF did not have a complete listing of activities, we were not
able to statistically sample the population for six indicators (indicators 1, 10, 11, 17, 22,
and 27 in Appendix III) relating to ADF’s training sessions, conferences, and technical
assistance sessions. Instead, we selected a one-week period, and then we were given
a list of activities for that week. From that list, we were then able to judgmentally select
a specific activity and request appropriate supporting documentation. However,
because this was a judgmental sample, we could not project these results for the six
indicators; therefore, we were unable to determine if they met their intended outputs.

For two civil society organization assessment indicators (indicators 6 and 8 in Appendix
III), we randomly selected 81 civil society organizations, assuming an error rate of less
than 5 percent. Variations allowed were plus or minus 4 percent, and the confidence
level was 95 percent. Based on the results of the sample testing, we projected the
results to the population of civil society organization assessments. Of the 81 CSOs
selected, ADF provided sufficient documentation, specifically the organization
assessment tool, for 77 CSOs (95 percent). Based on these results, we projected that
the CSO intended outputs did have proper supporting documentation, and therefore,
they met the intended outputs for these two indicators.

For three grant indicators (indicators 20, 25, and 30), we randomly selected 81 grants,
assuming an error rate of less than 5 percent. Variations allowed were plus or minus 4
percent, and the confidence level was 95 percent. Of the 81 grants selected for testing,
76 were complete at the time of the audit. For these 76 selected grants, ADF provided
sufficient documentation to support intended output results for 75 grants (99 percent).
Because the percentage meets our materiality threshold, we projected that the grants
did have sufficient supporting documentation, and as such, they met the intended
outputs for the three indicators. For each selected grant, we requested documentation
for review, including the grant agreement, monitoring reports, close-out reports,
participant lists (if appropriate), and other pertinent documents.

For the remaining 24 indicators, we attempted to verify 100 percent of the reported
outputs. For example, we requested and reviewed documentation to support the
reported number of 83 training modules developed. Of the 24 indicators, we determined
that the intended outputs were met for 12 indicators, but the intended outputs were not
met for 8 indicators. We were unable to determine if the intended outputs were achieved
for four indicators.

In conducting our fieldwork, we interviewed technical staff from the USAID/Iraq Mission,
its contractor (ADF), and selected grantees. These interviews were conducted either in
person or via e-mail correspondence. In addition, the audit included a financial review;
vouchers were judgmentally selected for review based on dollar values.

Site visits were made to 2 of the 81 selected grantees. Because the security situation
precluded visits to many areas, additional grants were judgmentally selected for
interviews based on funding levels and activities funded. In total, 27 site visits or




                                                                                           9
                                                                             APPENDIX I


interviews of grantees were performed. Because the site visits were not randomly
chosen, the results were not projected onto the population.

Our materiality threshold for this audit was established at 10 percent when determining if
an intended output was met. For example, if at least 90 percent of the intended output
was performed, we concluded that intended output was met. We considered using a
materiality threshold when answering the audit objective; however, we found that one
was not applicable for this audit.




                                                                                       10
                                                                            APPENDIX II



MANAGEMENT COMMENTS


MEMORANDUM

TO:           Nancy Lawton, Regional Inspector General, Iraq

FROM:         Hilda Arellano, Mission Director /s/

SUBJECT:      Mission Response to RIG/Audit of USAID/Iraq’s Civil Society Activities –
              Report No. E-267-06-00X-P

DATE:        October 24, 2006


This memorandum transmits the Mission’s response to the Regional Inspector General’s
draft report on the audit of USAID/Iraq’s Civil Society Activities.

The stated objective of the audit was to ascertain whether USAID/Iraq’s Civil Society
Activities are achieving their intended outputs. The audit found that USAID/Iraq’s civil
society activities of its primary implementing partner, America’s Development
Foundation (ADF), met 17 intended outputs while ADF reported not meeting 8 intended
outputs. The audit was unable to determine if ADF achieved the remaining 10 intended
outputs.

General Comments:

The Mission appreciates the opportunity to comment on the draft audit report which
made two recommendations. The audit covered the period August, 2004 to March 31,
2006, ADF submitted an initial PMP in late 2005 and subsequently revised it in early
2006. The PMP was prepared in the absence of an overall mission PMP, under
uncertainty of funding beyond March 31, 2006 and in a difficult security and
implementing environment. The ADS outlines the requirements for PMPs for a normal
operating mission which Iraq is not. The very fact that indicators and intended outputs
were established under near impossible operating conditions in Iraq is a major
accomplishment in itself.

Our comments on the two audit recommendations follow:

Recommendation No 1: We recommend that USAID/Iraq review each indicator in the
America’s Development Foundation (ADF) Performance Monitoring Plan for its civil
society activities to provide reasonable assurance that each indicator has a measurable
intended output and that the intended outputs are achievable in the timeframe specified
in the plan.


                                                                                   11
                                                                            APPENDIX II



   ¾ Response: Agree. USAID/Iraq received and reviewed ADF’s initial monitoring plan
     in late 2005 which was subsequently revised in early 2006. The indicators and
     outputs which were established at the time were deemed to be reasonable and
     achievable. The constant volatile and unpredictable operating Iraqi environment
     makes achievement of realistic indicators/outputs a huge challenge; the
     unpredictability and volatility of the Iraq environment requires constant revisions
     to indicators/outputs. The ADF PMP was established as a “best guess” at the
     time of its development given the operating conditions.

   ¾ Final Action: USAID and ADF met on October 15, 2006 to review the indicators
     and proposed outputs. As part of the PMP modification ADF will update and re-
     submit indicators and outputs within an agreed upon schedule. Regular PMP
     reviews will be undertaken until the end of the contract (June 30, 2007).

Recommendation No 2: We recommend that USAID/Iraq develop procedures for its civil
society activities to provide reasonable assurance that specific and accurate outputs are
reported for each intended output and that adequate supporting documentation is
maintained to substantiate the reported outputs.

   ¾ Response: Agree. At the time of the audit, ADF’s database was still under
     construction. The auditors were informed of this status by ADF. In April, 2006
     the database was completed. In May, 2006, USAID/Iraq required ADF to
     participate in the Mission-sponsored weeklong PMP workshop to provide input in
     the development of the SO PMP.

        ICSP’s Monitoring and Evaluation team has since April, 2006 completed the
       development of a comprehensive data base that charts all key information on
       ICSP partner CSOs, ICSP grants, CSO activities and scoring of the
       Organizational Assessment Tool. The database contains an inventory of all
       ICSP and ICSP support CSO actions. It is subject to rigorous quality control
       procedures including checks at the regional level and home office by trained
       database personnel to ensure accuracy, completeness and achievability.

   ¾ Final Action: USAID and ADF have agreed to the following calendar:

        Task                                            Date to USAID
        Updated list of indicators for period October   October 19, 2006
        1, 2006 – June 30, 2007
        Final PMP for October 1, 2006 – June 30,        October 31, 2006
        2007 with indicators and definitions
        PMR Report for January 1 – June 30, 2006        October 31, 2006
        PMR Report for July 1 – September 30,           November 21, 2006
        2006
        Quarterly Review of PMP indicators along        January 31, 2007
        with PMR
        Quarterly Review of PMP indicators along        April 30, 2007
        with PMR
        Final PMR                                       July 31, 2007


                                                                                       12
                                                                                                                                            APPENDIX III

    Table of Intended Outputs

                                                                                                                                                    Under or
                                                                                                                                      Intended        over
                                                                                                                   Revised              output      reported
                       Indicator                      Intended Output        Original Reported Output         Reported Output            met?      originally?
    Indicator 1.1: Civil Society Resource          40,000 beneficiaries   All four regional service centers   40,120                 Unable to     Under
    Centers (CSRCs) are operational and            attending a total of   are established, fully staffed,     beneficiaries          determine     reported
    provide safe and secure access for             1,600 activities by    equipped and have delivered         attending a total of   due to lack
    America’s Development Foundation (ADF)         December 2005          2,813 services to over 37,129       3,228 activities       of
1   staff and civil society organization (CSO)                            beneficiaries (37 percent of                               database
    clients. CSRCs are established and                                    whom are women) representing
    operating in Baghdad, Basrah, Erbil, and                              more than 1,000 CSOs.
    Hilla. Centers provide full service delivery
    and outreach to CSOs in all governorates.
    Indicator 2.1 CSRC staff development           All CSRCs have         Not reported in the Performance A general SDP              Yes           Under
    plans (SDPs) are designed and                  SDPs in place          Monitoring Report               has been                                 reported
    implemented to develop a cadre of highly                                                              developed for all
    qualified and experienced Iraqi trainers                                                              national staff
    and facilitators. SDPs include staff
    performance standards, evaluation
2   mechanisms and staff training programs
    that upgrade the professional skills of ADF
    staff in management, training, service
    delivery, administration, research,
    monitoring & evaluation, quality control,
    public relations, information technology
    and networking.




                                                                                                                                                     13
                                                                                                                                     APPENDIX III

                                                                                                                                            Under or
                                                                                                                                Intended      over
                                                                                                                   Revised       output     reported
                       Indicator                     Intended Output       Original Reported Output          Reported Output      met?     originally?
    Indicator 2.1 CSRC SDPs are designed          32 staff development/ ADF has delivered nine staff         38 staff          Yes         Under
    and implemented to develop a cadre of         technical training    development activities for 127       development                   reported
    highly qualified and experienced Iraqi        seminars              ADF staff. This number does not      activities took
    trainers and facilitators. SDPs include                             capture the ongoing mentoring        place
    staff performance standards, evaluation                             that takes place on a daily basis
    mechanisms and staff training programs                              between international and local
3   that upgrade the professional skills of ADF                         staff.
    staff in management, training, service
    delivery, administration, research,
    monitoring & evaluation, quality control,
    public relations, information technology
    and networking.

    Indicator 2.2 CSRC training materials and     72 CSO Capacity-       ADF has developed or adapted        83 modules were   Yes         Under
    resources are developed, adapted,             building Training      22 training modules, while          developed or                  reported
    validated and constantly upgraded. ADF        Modules                periodically updating the library   adapted
4   has region-specific approaches to CSO                                of resource materials at each
    training delivery and tailors services to                            center.
    support democratic changes underway in
    Iraq.
    Indicator 2.2 CSRC training materials and     Four CSRC resource     ADF has developed or adapted        Not revised       Yes         N/A
    resources are developed, adapted,             libraries              22 training modules, while
    validated and constantly upgraded. ADF                               periodically updating the library
5   has region-specific approaches to CSO                                of resource materials at each
    training delivery and tailors services to                            center.
    support democratic changes underway in
    Iraq.




                                                                                                                                                 14
                                                                                                                                   APPENDIX III

                                                                                                                                          Under or
                                                                                                                              Intended      over
                                                                                                           Revised             output     reported
                     Indicator                     Intended Output       Original Reported Output       Reported Output         met?     originally?
    Indicator 3.1: The ADF Civil Society        All CSRCs            For the April to December 2005 Not revised              Yes         N/A
    Organizational Assessment Tool (OAT) is     implementing the ADF period, ADF assessed 1,209
    developed and implemented in every          OAT                  CSOs. Also during this period,
    CSRC.                                                            the use of the tool was
                                                                     evaluated, and it was decided
                                                                     that the tool should be revised in
                                                                     light of knowledge gained during
                                                                     its application. The revised
6
                                                                     version reached near-final state
                                                                     in December.

                                                                         CSOs assessed by region:
                                                                         Central: 218
                                                                         South Central: 194
                                                                         North: 431
                                                                         South: 366
    Indicator 3.2: CSRC staff is trained in     36 staff development     For the period in question, the  ADF delivered 11   No          Under
    assessing CSOs using the OAT.               training activities on   ADF Capacity-building team       trainings                      reported
7                                               organizational           delivered five staff development
                                                assessment               sessions to 85 ADF staff
                                                                         members.
    Indicator 3.3: CSOs are assessed prior to   1,000 CSOs               CSOs are assessed prior to       Not revised        Yes         N/A
    receiving any ADF services and re-          assessed/re-             receiving any ADF services,
    assessment conducted four to six months     assessed by              though in many cases ADF
    after receiving services. The assessment    December 2005            priorities overtake this
    provides necessary baseline data to track                            prerequisite. In these cases,
8   the CSO capacity development and                                     partner CSOs who have
    measure the ADF impact.                                              received an ADF service without
                                                                         undergoing an assessment are
                                                                         asked to do so. (As indicated
                                                                         previously, 1,209 CSOs were
                                                                         assessed.)




                                                                                                                                               15
                                                                                                                                        APPENDIX III

                                                                                                                                                Under or
                                                                                                                                  Intended        over
                                                                                                                   Revised          output      reported
                        Indicator                 Intended Output         Original Reported Output           Reported Output         met?      originally?
    Indicator 3.4: Key CSOs are trained and     48 key CSOs trained ADF core partner CSOs are               146 key CSOs         Unable to     Under
    provide services to CSOs in all regions.    and providing           working with ADF on a daily         trained and          determine     reported
    Key CSOs and CSRCs organize and             services in all regions basis and executing the ADF         providing services   due to lack
    conduct conferences, workshops and                                  agenda in all its priority areas.   in all regions       of
    public forums that foster participation of                                                                                   supporting
    citizens and constructive activities by                                                                                      document-
    public interest groups that engage elected                                                                                   ation
    representatives and government officials
    and are directly related to the development
    of the new constitution and the
9   decentralization of governance. The basic
    criteria of selection of “key CSOs” include
    track record of achievement, governance
    and capacity, and CSO mission and goals
    in keeping with ADF’s. Key CSOs receive
    extensive technical assistance to sharpen
    their skills in focus areas and/or as local
    providers of training and technical
    assistance to client nongovernmental
    organizations (NGOs) and groups on
    aspects of civil society development.




                                                                                                                                                     16
                                                                                                                                        APPENDIX III

                                                                                                                                                Under or
                                                                                                                                  Intended        over
                                                                                                                    Revised         output      reported
                       Indicator                    Intended Output         Original Reported Output           Reported Output       met?      originally?
   Indicator 3.4: Key CSOs are trained and       550 assessments,         ADF core partner CSOs are           2,741              Unable to     Under
   provide services to CSOs in all regions.      training and technical   working with ADF on a daily         assessments,       determine     reported
   Key CSOs and CSRCs organize and               assistance               basis and executing the ADF         training and       due to lack
   conduct conferences, workshops and            interventions to local   agenda in all its priority areas.   technical          of
   public forums that foster participation of    CSOs                                                         assistance         database
   citizens and constructive activities by                                                                    interventions to
   public interest groups that engage elected                                                                 local CSOs
   representatives and government officials
   and are directly related to the development
   of the new constitution and the
10 decentralization of governance. The basic
   criteria of selection of “key CSOs” include
   track record of achievement, governance
   and capacity, and CSO mission and goals
   in keeping with ADF’s. Key CSOs receive
   extensive technical assistance to sharpen
   their skills in focus areas and/or as local
   providers of training and technical
   assistance to client NGOs and groups on
   aspects of civil society development.




                                                                                                                                                     17
                                                                                                                                      APPENDIX III

                                                                                                                                              Under or
                                                                                                                                Intended        over
                                                                                                                 Revised          output      reported
                       Indicator                    Intended Output       Original Reported Output           Reported Output       met?      originally?
   Indicator 3.4: Key CSOs are trained and       72 events including    ADF core partner CSOs are           226 events         Unable to     Under
   provide services to CSOs in all regions.      conferences,           working with ADF on a daily         including          determine     reported
   Key CSOs and CSRCs organize and               workshops and public   basis and executing the ADF         conferences and    due to lack
   conduct conferences, workshops and            forums                 agenda in all its priority areas.   public forums      of
   public forums that foster participation of                                                                                  database
   citizens and constructive activities by
   public interest groups that engage elected
   representatives and government officials
   and are directly related to the development
   of the new constitution and the
11 decentralization of governance. The basic
   criteria of selection of “key CSOs” include
   track record of achievement, governance
   and capacity, and CSO mission and goals
   in keeping with ADF’s. Key CSOs receive
   extensive technical assistance to sharpen
   their skills in focus areas and/or as local
   providers of training and technical
   assistance to client NGOs and groups on
   aspects of civil society development.

   Indicator 3.5: Foster and support the         12 Satellite Support   This concept was developed          Not revised        No            N/A
   development of CSRC satellite support         Centers. Three per     and vetted within ADF for the
12 centers owned and operated by qualified       region by December     period in question, and will be
   key CSOs.                                     2005                   reported on for the next
                                                                        reporting period.
   Indicator 4.1: CSRC business plans are in     All CSRCs have         Each center has in place and is     Not revised        Yes           N/A
13 place.                                        business plans in      implementing a business plan.
                                                 place




                                                                                                                                                   18
                                                                                                                                          APPENDIX III

                                                                                                                                                  Under or
                                                                                                                                    Intended        over
                                                                                                                    Revised          output       reported
                     Indicator                       Intended Output          Original Reported Output         Reported Output        met?       originally?
   Indicator 4.2: CSRC advisory boards are        All CSRCs have            Each center has an advisory        Not revised         Yes           N/A
   in place to guide development of               chosen lists of           board in place.
14 sustainability plans and actions.              candidates for
                                                  advisory board
                                                  members
     Indicator 4.3: CSRC sustainability plans     CSRC sustainability       A sustainability plan for each     Not revised         Yes           N/A
     are developed and initiated.                 plans initiated in each   center was submitted in
15                                                center                    September 2005.

   Indicator 5.1: ADF training staff and key      36 training activities    One civic education staff          143 civic           Yes           Under
   CSOs are trained to deliver quality training                             development activity took place    education staff                   reported
   services in civic education advocacy                                     for the period reported.           development
16
   areas.                                                                                                      activities took
                                                                                                               place for the
                                                                                                               period
     Indicator 5.3: ADF engages, assesses         220 activities with       For the period in question, the    628 activities with Unable to     Under
     and builds the capacity of CSOs, in          5400 participants         ADF Civic Education team           15,609 participants determine     reported
     particular key partner CSOs, in civic                                  delivered 559 services                                 due to lack
     education advocacy.                                                    (workshops, technical                                  of
                                                                            assistance, forums, and                                database
17
                                                                            conferences) to 14,796 CSO
                                                                            members – 36% of whom are
                                                                            women – to enable partner
                                                                            CSOs to conduct awareness-
                                                                            raising and advocacy activities.




                                                                                                                                                       19
                                                                                                                                         APPENDIX III

                                                                                                                                                Under or
                                                                                                                                    Intended      over
                                                                                                                    Revised          output     reported
                       Indicator                    Intended Output          Original Reported Output         Reported Output         met?     originally?
     Indicator 5.4: Key CSOs organize             144 civic education     ADF “core” or “key” partner         70 civic education   No          Under
     advocacy and awareness campaigns on          activities per region   CSOs evolve out of ADF’s            activities                       reported
     civic education targeting CSOs and the                               continued inputs and
     public, specifying actions that public can                           subsequent monitoring of the
     take to be participatory.                                            effect on CSO outputs. Those
                                                                          CSOs most prolific, efficient,
18
                                                                          and effective in carrying out
                                                                          awareness raising and
                                                                          advocacy are considered core
                                                                          partners, some of whom evolve
                                                                          further to serve as ADF satellite
                                                                          centers.
     Indicator 5.4: Key CSOs organize             18 civic education      ADF “core” or “key” partner         63 civic education   Yes         Under
     advocacy and awareness campaigns on          conferences and         CSOs evolve out of ADF’s            activities took                  reported
     civic education targeting CSOs and the       public forums           continued inputs and                place
     public specifying actions that public can    conducted by key        subsequent monitoring of the
     take to be participatory.                    CSOs                    effect on CSO outputs. Those
                                                                          CSOs most prolific, efficient,
19
                                                                          and effective in carrying out
                                                                          awareness raising and
                                                                          advocacy are considered core
                                                                          partners, some of whom evolve
                                                                          further to serve as ADF satellite
                                                                          centers.




                                                                                                                                                     20
                                                                                                                                           APPENDIX III

                                                                                                                                                   Under or
                                                                                                                                     Intended        over
                                                                                                                      Revised         output       reported
                     Indicator                         Intended Output          Original Reported Output         Reported Output       met?       originally?
     Indicator 5.6: Small grants awarded to         65 small grants          For the period in question, ADF     Not revised        Yes           N/A
     CSOs engaged in civic education                awarded to CSOs          invested $539,184 across 66
     activities.                                    engaged in civic         grants for partner CSOs to
                                                    education depending      engage in Civic Education
20                                                  on the amount of         awareness raising and
                                                    each grant, the total    advocacy.
                                                    amount of grants for
                                                    civic education sector
                                                    is $1,200,000
     Indicator 6.1: ADF training staff and key      36 training activities  ADF conducted one staff              52 staff           Unable to     Under
     CSOs are trained to deliver quality training   including four training development session for the          development        determine     reported
     services in gender advocacy.                   of trainers activities  period in question, training eight   activities took    due to lack
21                                                                          women’s advocacy team                place              of
                                                                            members.                                                supporting
                                                                                                                                    document-
                                                                                                                                    ation
     Indicator 6.3: ADF builds the capacity of      180 activities with      For the period in question, the  445 activities with   Unable to     Under
     CSOs, in particular key partner CSOs, in       4,400 participants       ADF women’s advocacy team        5,537 participants    determine     reported
     gender advocacy.                                                        delivered 398 services                                 due to lack
                                                                             (workshops, technical                                  of
                                                                             assistance, forums, and                                database
22
                                                                             conferences) to 4,987 CSO
                                                                             members – 69 percent of whom
                                                                             are women – to enable partner
                                                                             CSOs to conduct awareness-
                                                                             raising and advocacy activities.




                                                                                                                                                        21
                                                                                                                                    APPENDIX III

                                                                                                                                           Under or
                                                                                                                               Intended      over
                                                                                                                  Revised       output     reported
                       Indicator                    Intended Output          Original Reported Output       Reported Output      met?     originally?
     Indicator 6.4: Key CSOs organize             144 gender activities   ADF “core” or “key” partner       Seven gender      No          Under
     advocacy and awareness campaigns on          per region              CSOs evolve out of ADF’s          activities                    reported
     gender targeting CSOs and the public,                                continued inputs and
     specifying actions that public can take to                           subsequent monitoring of the
     be participatory.                                                    effect on CSO outputs. Those
                                                                          CSOs most prolific, efficient,
23
                                                                          and effective in carrying out
                                                                          awareness raising and
                                                                          advocacy are considered core
                                                                          partners, some of whom evolve
                                                                          further to serve as ADF satellite
                                                                          centers.
     Indicator 6.4: Key CSOs organize             18 gender events        ADF “core” or “key” partner       Not revised       Unable to   N/A
     advocacy and awareness campaigns on          (conferences and        CSOs evolve out of ADF’s                            determine
     gender targeting CSOs and the public,        public forums)          continued inputs and                                based on
     specifying actions that public can take to   conducted by key        subsequent monitoring of the                        reported
     be participatory.                            CSOs                    effect on CSO outputs. Those                        result.
                                                                          CSOs most prolific, efficient,
24
                                                                          and effective in carrying out
                                                                          awareness raising and
                                                                          advocacy are considered core
                                                                          partners, some of whom evolve
                                                                          further to serve as ADF satellite
                                                                          centers.




                                                                                                                                                22
                                                                                                                                         APPENDIX III

                                                                                                                                                 Under or
                                                                                                                                   Intended        over
                                                                                                                  Revised           output       reported
                     Indicator                       Intended Output          Original Reported Output       Reported Output         met?       originally?
     Indicator 6.6: Small grants awarded to       60 small grants          For the period in question, ADF   Not revised          Yes           N/A
     CSOs engaged in gender advocacy.             awarded to CSOs          invested $524,364 across 63
                                                  engaged in civic         grants for partner CSOs to
                                                  education depending      engage in women’s advocacy
                                                  on the amount of         awareness raising and
25
                                                  each grant, the total    advocacy.
                                                  amount of grants for
                                                  civic education sector
                                                  is $1,200,000

   Indicator 7.1: ADF training staff and key      36 training activities   ADF conducted two staff           110 anticorruption   Yes           Under
   CSOs are trained to deliver quality training                            development sessions for the      activities took                    reported
26 services in anticorruption advocacy.                                    period in question, training 27   place
                                                                           anticorruption team members.
     Indicator 7.3: ADF builds the capacity of    180 activities with      For the period in question, the  731 activities with   Unable to     Under
     CSOs, in particular key partner CSOs, in     4,400 participants       ADF Anti-Corruption team         3,624 participants    determine     reported
     anticorruption advocacy.                                              delivered 648 services                                 due to lack
                                                                           (workshops, technical                                  of
                                                                           assistance, forums, and                                database
27
                                                                           conferences) to 2,662 CSO
                                                                           members – 69 percent of whom
                                                                           are women – to enable partner
                                                                           CSOs to conduct awareness-
                                                                           raising and advocacy activities.




                                                                                                                                                      23
                                                                                                                                      APPENDIX III

                                                                                                                                             Under or
                                                                                                                                 Intended      over
                                                                                                                 Revised          output     reported
                       Indicator                    Intended Output        Original Reported Output         Reported Output        met?     originally?
     Indicator 7.4: Key CSOs organize             144 anticorruption    ADF “core” or “key” partner         Not revised         Unable to   N/A
     advocacy and awareness campaigns on          advocacy activities   CSOs evolve out of ADF’s                                determine
     anticorruption targeting CSOs and the        per region            continued inputs and                                    based on
     public, specifying actions that public can                         subsequent monitoring of the                            reported
     take to be participatory.                                          effect on CSO outputs. Those                            result
                                                                        CSOs most prolific, efficient,
28
                                                                        and effective in carrying out
                                                                        awareness raising and
                                                                        advocacy are considered core
                                                                        partners, some of whom evolve
                                                                        further to serve as ADF satellite
                                                                        centers.
     Indicator 7.4: Key CSOs organize             18 anticorruption     ADF “core” or “key” partner         33 anticorruption   Yes         Under
     advocacy and awareness campaigns on          advocacy events       CSOs evolve out of ADF’s            events took place               reported
     anticorruption targeting CSOs and the        (conferences and      continued inputs and                conducted by key
     public, specifying actions that public can   public forums)        subsequent monitoring of the        CSOs
     take to be participatory.                    conducted by key      effect on CSO outputs. Those
                                                  CSOs                  CSOs most prolific, efficient,
29
                                                                        and effective in carrying out
                                                                        awareness raising and
                                                                        advocacy are considered core
                                                                        partners, some of whom evolve
                                                                        further to serve as ADF satellite
                                                                        centers.




                                                                                                                                                  24
                                                                                                                                     APPENDIX III

                                                                                                                                            Under or
                                                                                                                                Intended      over
                                                                                                                Revised          output     reported
                   Indicator                      Intended Output           Original Reported Output       Reported Output        met?     originally?
   Indicator 7.6: Small grants awarded to      75 small grants           For the period in question, ADF   Not revised         Yes         N/A
   CSOs engaged in anti-corruption activities. awarded to CSOs           invested $611,490 across 76
                                               engaged in                grants for partner CSOs to
                                               anticorruption            engage in anticorruption
                                               depending on the          awareness raising and
30                                             amount of each grant,     advocacy.
                                               the total amount of
                                               grants for
                                               anticorruption sector
                                               is $2,150,000

   Indicator 8.1: ADF training staff and key      36 training activities, Not reported in the Performance 26 activities took   No          Under
31 CSOs are trained to deliver quality training   including four training Monitoring Report               place                            reported
   services in human rights advocacy.             of trainers activities
   Indicator 8.3: ADF builds the capacity of      180 activities with    Not reported in the Performance Not revised           No          N/A
32 CSOs, in particular key partner CSOs, in       4,400 participants     Monitoring Report
   human rights advocacy.
   Indicator 8.4: Key CSOs organize               144 human rights       Not reported in the Performance Not revised           No          N/A
   advocacy and awareness campaigns on            advocacy activities    Monitoring Report
33 human rights targeting CSOs and the            per region
   public, specifying actions that public can
   take to be participatory.

   Indicator 8.4: Key CSOs organize               18 human rights        Not reported in the Performance 31 activities took    Yes         Under
   advocacy and awareness campaigns on            advocacy events        Monitoring Report               place conducted                   reported
   human rights targeting CSOs and the            (conferences and                                       by key CSOs
34 public, specifying actions that public can     public forums)
   take to be participatory.                      conducted by key
                                                  CSOs




                                                                                                                                                 25
                                                                                                                             APPENDIX III

                                                                                                                                    Under or
                                                                                                                        Intended      over
                                                                                                          Revised        output     reported
                     Indicator                   Intended Output       Original Reported Output      Reported Output      met?     originally?
     Indicator 8.6: Small grants awarded to   65 small grants        Not reported in the Performance Not revised       No          N/A
     CSOs.                                    awarded to CSOs        Monitoring Report
                                              engaged in human
                                              rights depending on
35                                            the amount of each
                                              grant, the total
                                              amount of grants for
                                              the human rights
                                              sector is $600,000




                                                                                                                                         26
                                                                               APPENDIX IV

Table of Indicators Without Intended Outputs
                          Indicator                                Reported Output
 1    Indicator 5.2: America’s Development Foundation      No civic education training modules
      (ADF) staff adapt, develop and validate civic        were adapted for the period
      education training modules and other materials and   reported.
      resources.
 2    Indicator 5.5: The impact of the ADF and key civil   For the period in question, ADF
      society organization (CSO) civic education           documented 51 instances of media
      activities in raising awareness of civic education   coverage of ADF or partner CSO
      issues among the Iraqi public as featured in the     activities.
      media.
 3    Indicator 6.2: ADF staff adapt, develop, and          ADF adapted four women’s
      validate gender training modules and other           advocacy training modules for the
      materials and resources.                             period in question.
 4    Indicator 6.5: The impact of the ADF and key CSO     The ADF women’s advocacy team
      gender advocacy activities in raising awareness of   documented 29 instances of
      gender advocacy issues among the Iraqi public, as    newspaper, radio, and television
      featured in the media.                               coverage of ADF or ADF partner
                                                           CSO awareness-raising and
                                                           advocacy efforts.
 5    Indicator 7.2: ADF staff adapt, develop and           ADF adapted four anticorruption
      validate anticorruption advocacy training modules    training modules for the period in
      and other materials and resources.                   question.
 6    Indicator 7.5: The impact of the ADF and key CSO     The ADF Anti-Corruption team
      anticorruption activities in raising awareness of    documented 72 instances of
      anticorruption issues among the Iraqi public as      newspaper, radio, and television
      featured in the media and through specialized and    coverage of ADF or ADF partner
      periodic public opinion surveys.                     CSO awareness-raising and
                                                           advocacy efforts.
 7    Indicator 8.2: ADF staff adapt, develop and          Not reported in ADF’s Performance
      validate human rights training modules and other     Monitoring Report
      materials and resources.
 8    Indicator 8.5: The impact of the ADF and key CSO     Not reported in ADF’s Performance
      human rights activities in raising awareness of      Monitoring Report
      human rights issues among the Iraqi public as
      portrayed in the media.




                                                                                       27
         USAID/IRAQ/RIG
          APO, AE 09316
Tel: (202) 216-6276, extension 1036
        Fax: (202) 216-6276
          www.usaid.gov
